               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Bowling Green, KY Consolidation


                       Audit Report




                                              August 25, 2011

Report Number EN-AR-11-008
                                                                       August 25, 2011

                                                  Bowling Green, KY Consolidation

                                                        Report Number EN-AR-11-008




IMPACT ON:
Mail processing operations in the           when consolidating operations into two
Kentuckiana and Tennessee Districts.        or more gaining facilities.

WHY THE OIG DID THE AUDIT:                  WHAT THE OIG RECOMMENDED:
We performed this review as a result of     We recommended the Kentuckiana and
a congressional request on the              Tennessee District managers ensure
consolidation of some mail processing       that processing and transportation plans
operations from the Bowling Green           are in place to achieve overnight service
Processing and Distribution Facility        standards as outlined in the AMP
(P&DF) into the Evansville P&DF and         proposal for Bowling Green P&DF mail.
the Nashville Processing and                We also recommended that the
Distribution Center (P&DC). Our             manager, Processing Operations,
objectives were to assess the business      enhance area mail processing
case and operational impacts of the         worksheets to ensure data can be
consolidation.                              consolidated electronically when there
                                            are two or more gaining facilities.
WHAT THE OIG FOUND:
A valid business case exists to             WHAT MANAGEMENT SAID:
consolidate originating mail processing     Management agreed with the
operations. Our analysis indicated that     recommendations and will ensure
(1) adequate capacity exists to process     Bowling Green service standards are
additional mail volumes at the gaining      achieved as outlined in the AMP
sites, (2) customer service will be         proposal and will also enhance the AMP
minimally impacted, (3) efficiency at the   worksheets for multiple gaining facilities.
gaining sites was higher than the
Bowling Green P&DF and should               AUDITORS’ COMMENTS:
continue to improve with the additional     The OIG considers management’s
mail volumes, and (4) no career             comments responsive to the
employee will lose their job at either      recommendations and the corrective
location, although there may be some        actions should resolve the issues
reassignments at the Bowling Green          identified in the report.
P&DF. However, Area Mail Processing
(AMP) worksheets could be enhanced          Link to review the entire report
August 25, 2011

MEMORANDUM FOR:            FRANK NERI
                           MANAGER, PROCESSING OPERATIONS

                           DAVID J. DILLMAN
                           DISTRICT MANAGER, KENTUCKIANA DISTRICT

                           GREG GAMBLE
                           DISTRICT MANAGER, TENNESSEE DISTRICT




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Bowling Green, KY Consolidation
                           (Report Number EN-AR-11-008)

This report presents the results of our audit of the Bowling Green, KY Processing and
Distribution Facility (P&DF) consolidation of originating mail into the Evansville, IN
P&DF and Nashville, TN Processing and Distribution Center (Project Number
11XG028EN000). The report responds to a congressional request. Our objectives were
to assess the business case and operational impacts of the consolidation.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.

Attachments

cc: Jordan M. Small
    David E. Williams Jr.
    Stephen E. Martin
    Kristin A. Seaver
    Corporate Audit and Response Management
                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Capacity .......................................................................................................................... 1

Customer Service ............................................................................................................ 2

   EXFC Scores ............................................................................................................... 2

   Service Standards ....................................................................................................... 4

Efficiency ......................................................................................................................... 6

Employee Impact ............................................................................................................ 6

Cost Savings ................................................................................................................... 7

AMP Guidelines .............................................................................................................. 8

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objectives, Scope, and Methodology ........................................................................ 13

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Management’s Comments ........................................................................ 15
Bowling Green, KY Consolidation                                                                              EN-AR-11-008



Introduction

This report presents the results of our audit of the Bowling Green, KY Processing and
Distribution Facility (P&DF) originating mail consolidation into the Evansville, IN P&DF
and Nashville, TN Processing and Distribution Center (P&DC) (Project Number
11XG028EN000). The report responds to a congressional request. Our objectives were
to assess the business case and operational impacts of the consolidation. The audit
addresses operational risk. See Appendix A for additional information about this audit.

Conclusion

A valid business case exists to consolidate originating1 mail processing operations from
the Bowling Green P&DF into the Evansville P&DF and Nashville P&DC to achieve cost
savings of approximately $3.2 million annually. Our analysis also indicated that:

      Adequate capacity exists to process additional mail volume at the two gaining sites.

      Customer service will be minimally impacted with less than 3 percent of mail
       transferred resulting in downgraded service standards. To mitigate some
       downgrades, management stated that First-Class Mail (FCM) processed at the
       Nashville P&DC destined for Bowling Green will maintain overnight service
       standards that existed prior to the consolidation.

      Efficiency at both the Evansville P&DF and the Nashville P&DC was higher than at
       the Bowling Green P&DF and should continue to improve with the additional mail
       volume.

      No career employee will lose their job at either location, although there may be some
       reassignments at the Bowling Green P&DF.

      Area Mail Processing (AMP) worksheets should be enhanced when consolidating
       operations into two or more gaining facilities.

Capacity

Adequate capacity exists at both gaining sites to process the increased mail volume as
a result of the consolidation. Specifically:

      The increase in total pieces handling (TPH)2 volume at the Evansville P&DF will be
       about 22 percent.

      The increase in TPH volume at the Nashville P&DC will be about 4 percent.


1
    Outgoing and local mail that enters the mailstream (that is, the point of origin) for mail processing and delivery.
2
    The number of handlings necessary to distribute each piece of mail from receipt to dispatch.
                                                              1
Bowling Green, KY Consolidation                                                                     EN-AR-11-008



This represents a minimal increase to their current operations. The gaining sites will
absorb the increased mail volume and mail processing equipment will not be moved
due to the consolidation.

Customer Service

The consolidation will have minimal impact on customer service.3 Based on fiscal year
(FY) 2010 service performance, the Evansville P&DF and Nashville P&DC met or
exceeded service results of the Bowling Green P&DF. The Nashville P&DC had
difficulty meeting the “trips on time to delivery units” 24-hour clock indicator;4 however, it
had minimal impact on their External First-Class (EXFC) service scores.5

EXFC Scores

During FY 2010, the Nashville P&DC and Evansville P&DF had higher EXFC scores
than the Bowling Green P&DF in all three categories – Overnight, 2-Day, and 3-Day
Service (see Charts 1, 2, and 3).

                       Chart 1: Overnight EXFC Service Scores (FY 2010)

    97%

    97%
                                                                                      National Goal is 96.5%
    96%

    96%

    95%

    95%
                                                                                      Ontime% Composite Total
    94%                                                                               Ontime% Originating Total
                                                                                      Ontime% Destinating Total
    94%

    93%

    93%

    92%
           Nashville     Evansville      Bowling     Eastern Area     National
            P&DC          P&DF           Green
                                          P&DF




3
  We reviewed three measures of customer service: the EXFC system, the 24-Hour Clock Indicators, and projected
service standard upgrades and downgrades.
4
  24-Hour Clock indicators measure key indicators of operating performance at mail processing plants, which may
influence service.
5
  Test an independent contractor performs to measure service performance for FCM (letters, flats, and postcards)
from mailbox to delivery customer.


                                                        2
Bowling Green, KY Consolidation                                                        EN-AR-11-008



                      Chart 2: 2-Day EXFC Service Scores (FY 2010)

 96%


 94%                                                                         National Goal is 94.0%


 92%


 90%                                                                       Ontime% Composite Total
                                                                           Ontime% Originating Total
                                                                           Ontime% Destinating Total
 88%


 86%


 84%
         Nashville    Evansville   Bowling Green Eastern Area   National
          P&DC         P&DF           P&DF




                      Chart 3: 3-Day EXFC Service Scores (FY 2010)

 95%


 94%


 93%
                                                                           National Goal is 92.7%

 92%
                                                                           Ontime% Composite Total
 91%                                                                       Ontime% Originating Total
                                                                           Ontime% Destinating Total
 90%


 89%


 88%
         Nashville    Evansville   Bowling Green Eastern Area   National
          P&DC         P&DF           P&DF




                                                   3
Bowling Green, KY Consolidation                                                                       EN-AR-11-008



24-Hour Clock Indicators

The Evansville P&DF exceeded all established 24-Hour Clock performance indicators in
FY 2010. The Nashville P&DC and Bowling Green P&DF did not meet the performance
indicator national target for mail cancelled by 8:00 p.m. The Nashville P&DC also had
difficulty meeting the national target trips on time to delivery units. The additional mail
volume from the consolidation could further influence timely delivery of mail. However,
management stated that transportation in place as a result of the consolidation will
ensure that mail meets operational clearance times. Consequently, the 24-Hour Clock
indicators below established targets should not negatively impact EXFC service scores
for the gaining facilities (see Table 1).

                           Table 1: 24-Hour Clock Indicators (FY 2010)

                                                    Bowling
                                                     Green           Evansville          Nashville
                                                     P&DF              P&DF               P&DC           National
                Indicator                          Percentage        Percentage         Percentage        Target
Cancel 80% of collection mail by 8:00
p.m.                                                          70.5             80.7              70.8          80.0
Clear outgoing primary mail by 11:00
p.m.                                                          97.9             99.8              99.8         100.0
Clear outgoing secondary mail by
12:00 a.m.                                                    97.6            100.0              97.0         100.0
Clear Managed Mail Program (MMP)
mail by 12:00 a.m. - zero MMP                                 N/A               N/A              98.8         100.0
Assign mail to commercial/FedEx
outgoing mail by 2:30 a.m.                                   100.0            100.0              89.9         100.0
Clear Delivery Point Sequence 2nd
Pass by 7:00 a.m.                                             99.1             99.7              99.6         100.0
Trips on-time between 4:00 – 9:00 a.m.
to delivery units                                             96.2             95.1              71.2          86.9

Service Standards

As of June 2011, results from the Service Standard Directory6 identified overall net
downgrades in service standards7 for all mail classes of approximately 2 percent of mail
volume from Bowling Green (3-Digit ZIP Codes™ 421 and 422) transferred to the
Nashville P&DC and less than 1 percent of mail volume from Bowling Green
(3-Digit ZIP Code 423) transferred to the Evansville P&DF. According to the AMP,
transportation adjustments were made to mitigate some downgrades in service (see
Tables 2 and 3).

6
  A web-based system that provides mail class service standards information to internal customers via the Postal
Service intranet.
7
  A stated goal for service achievement for each mail class. Service standards represent the level of service the
Postal Service strives to provide to customers and are considered one of the primary operational goals against which
service performance is measured. An upgrade or downgrade means that service between two ZIP Codes is either
faster or slower than it was before a change.


                                                         4
Bowling Green, KY Consolidation                                                           EN-AR-11-008




                         Table 2: Service Standard Impacts
         Bowling Green P&DF (3-Digit ZIP Codes 421 and 422) to Nashville P&DC


                                                                                   Mail
                                                                                  Volume
                                                                        Net     Percentage
              Mail Class         Upgrades         Downgrades          Change     Affected8
            First-Class                46               256              -210      -2.2
            Priority                   38               124               -86      -0.5
            Periodicals               136               416              -280       0
            Standard                  328               586              -258       0
            Package
            Services                  314                586             -272      -0.4
            All Classes               862               1968            -1106      -2.2


According to the AMP, the Bowling Green P&DF transferred volume will assume
Nashville’s P&DC service standards. This indicates that the FCM service standard for
3-Digit ZIP Codes 421-422 mail processed at the Nashville P&DC and destined for the
Bowling Green P&DF is 2 days. However, management stated that FCM that originates
and destinates at the Bowling Green P&DF will maintain the overnight service standard
that existed prior to the consolidation.

                            Table 3: Service Standard Impacts
               Bowling Green P&DF (3-Digit ZIP Code 423) to Evansville P&DF

                                                                                   Mail
                                                                                 Volume
                                                                        Net     Percentage
              Mail Class        Upgrades         Downgrades           Change     Affected
            First-Class               2                 6                 -4       -0.5
            Priority                  2                 6                 -4       -0.9
            Periodicals               5                 6                 -1       0.0
            Standard                  3                 2                  1       0.0
            Package
                                      3                 2                 1        0.0
            Services
            All Classes              15                 22                -7       -0.5




The consolidation will not impact local delivery boxes, window service times for retail
units, or business mail acceptance hours. Additionally, customers will be able to obtain
a local postmark at the Owensboro Post Office (PO)9 or Bowling Green P&DF retail unit.

8
    Mail volume obtained from the Bowling Green AMP dated February 27, 2011.
9
    Owensboro PO services mail with the 3-digit ZIP Code 423.


                                                        5
Bowling Green, KY Consolidation                                                                     EN-AR-11-008




Efficiency

The Evansville P&DF and Nashville P&DC achieved higher Breakthrough Productivity
Initiative (BPI)10 efficiency percentages in FY 2010 than the Bowling Green P&DF.

Efficiency at the gaining sites has improved for FY 2011 year-to-date (YTD). Future
scores should continue to improve as a result of the consolidation due to additional mail
volumes (see Table 4).

                                Table 4: BPI Scorecard Comparison

                                                                                    FY 2011
                                                        FY 2010                       YTD
                     Facility                          Percentage                 Percentage11
           Bowling Green P&DF                             72.5
           Evansville P&DF                                73.0                          75.6
           Nashville P&DC                                 80.1                          82.0
           Source: EDW

Many factors impact BPI scores, including mail mix, type of sortation, and size of the
plant. BPI scores show the performance of plants compared to established performance
expectations, with higher scores representing better performance.

With the consolidation, management projects a 27 percent gain in TPH productivity at
the Evansville P&DF and a 15 percent gain at the Nashville P&DC.

Employee Impact

The consolidation will have minimal impact on employees. No career employee will lose
their job at the Bowling Green P&DF, but some employees may be reassigned.12

There will be a reduction of 25 full-time equivalent (FTE) craft positions and one
Executive and Administrative Schedule (EAS) position at the Bowling Green P&DF.
However, the AMP lists 20 craft employees who are eligible to retire13 at the Bowling
Green P&DF.

Based on our 3-year attrition analysis14 of the Bowling Green P&DF, there has been a
reduction of at least five employees each year. Considering the number of employees
already eligible for retirement and the attrition average, the number of positions
impacted by the consolidation is manageable.

10
   A comprehensive and integrated method for comparing and improving productivity in mail processing operations.
11
   Percentages as of FY 2011, week 35. We excluded the BPI percentage for the Bowling Green P&DF due to
implementation of the AMP.
12
   According to the Postal Service, reassignments will be in accordance with labor/management agreements.
13
   The number of employees eligible to retire as noted in the December 7, 2010, version of the AMP.
14
   Attrition analysis performed for FYs 2008, 2009, and 2010.


                                                        6
Bowling Green, KY Consolidation                                                                   EN-AR-11-008




Cost Savings

Cost-saving projections were validated and will primarily be the result of workhour
reductions. The Postal Service estimated annual cost savings from the consolidation to
be approximately $3.2 million; however, the OIG estimated a slight decrease of $12,443
in total annual savings and an increase of $17,557 in the total first-year savings (see
Chart 4).

                                Chart 4: Cost Savings Comparison

                        Savings/Cost                                        AMP              OIG Analysis
                                                                           Study
Mail Processing Craft Workhour Savings                                     $2,529,868             $2,529,868
Non-MP/EAS + Shared LDCs Workhour Savings
                                                                               131,798                131,798
(less maintenance and transportation)
PCES/EAS Supervisory Workhour Savings                                          231,432                231,432
Transportation Savings                                                          43,921                 31,478
Maintenance Savings                                                            247,970                247,970
Space Savings                                                                        0                      0
Total Annual Savings                                                         3,184,989              3,172,546

Total One-Time Costs                                                          (75,000)               (45,000)
Total First-Year Savings                                                   $3,109,989             $3,127,546

We identified a reduction in the proposed savings of $12,443 in transportation costs due
to benchmarking Highway Contract Route 40010 against the current cost instead of
using the formula in the AMP worksheet.15

The Postal Service included one-time costs of $75,000 in the AMP. However, employee
relocation costs of $55,000 may be overstated by $30,000. The AMP projected
relocation expenses for 11 employees that included six casuals who are not entitled to
relocation benefits. The number of craft positions that may be entitled to relocation
benefits is five, at a cost of $25,000. We are not making a recommendation on this
overstatement since management acknowledged the issue and will take corrective
action during the Post-Implementation Review (PIR).




15
  Handbook PO-408, Area Mail Processing Guidelines, states that proposed annual costs are derived by determining
the change in annual mileage multiplied by 85 percent of the current cost per mile and added to the current cost,
which is an embedded formula in the AMP electronic worksheets.


                                                       7
Bowling Green, KY Consolidation                                                                        EN-AR-11-008



AMP Guidelines

This AMP involved consolidating mail processing operations from one losing facility into
two gaining sites. Handbook PO-408 provides no specific guidance for or examples of
consolidating operations into two or more gaining facilities.16 Earlier versions of this
AMP consisted of two sets of electronic worksheets – one for each gaining site. When
these were combined into one set, missing and inaccurate data resulted from manual
population and data entry instead of automatically populating into electronic worksheets.
Specifically, TPH/Non-Add TPH (NATPH)17 mail volume and total craft position loss
were not noted accurately for the Nashville P&DC and Bowling Green P&DF,
respectively. However, supporting documentation confirmed actual amounts that were
not reflected on the combined worksheets.

A previous review of another AMP18 that consolidated operations into two gaining
facilities also identified worksheet discrepancies. A recommendation to enhance the
process may have eliminated the manual worksheet completion for this AMP and future
similar consolidations.

Accurate and complete AMP data are important for supporting management decisions,
ensuring management accountability, and strengthening stakeholder confidence in the
consolidation process. The use of inaccurate data on AMP worksheets can affect the
business case for the consolidation. In this case, missing and inaccurate data for the
Bowling Green P&DF consolidation did not have a material impact on the proposed
savings, but should be accounted for during the PIR.

Recommendations

We recommend the managers, Kentuckiana and Tennessee Districts:

1. Ensure that processing and transportation plans are in place to achieve overnight
   service standards as outlined in the Area Mail Processing proposal for Bowling
   Green Processing and Distribution Facility mail.

We recommend the manager, Processing Operations:

2. Enhance area mail processing worksheets to ensure that data can be consolidated
   electronically when there are two or more gaining facilities.




16
   Handbook PO-408 states, “In special circumstances, such as two or more facilities consolidating into one gaining
facility or operations from one facility are transferred to two or more gaining facilities, the area AMP coordinator
should contact the manager Network Alignment Implementation for specific guidance.”
17
   NATPH is the volume in non-distribution operations that is recorded as TPH but not added to the bottom line for
mail processing distribution.
18
   Review of the Wilkes-Barre, PA P&DF consolidation.


                                                          8
Bowling Green, KY Consolidation                                             EN-AR-11-008



Management’s Comments

Management agreed with our findings and recommendations and stated they will
ensure processing and transportation plans are in place to achieve overnight service
standards as outlined in the AMP proposal for Bowling Green P&DF mail. Management
will implemented this by the date of the first PIR on December 31, 2011. Management
will also enhance AMP worksheets for studies consolidating one site into multiple sites
and expects to complete this work by May 31, 2012. See Appendix B for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues identified in the report.




                                           9
Bowling Green, KY Consolidation                                                                 EN-AR-11-008



                               Appendix A: Additional Information

Background

The financial outlook of the Postal Service is in question as it ended the second quarter
of this fiscal year (January 1–March 31, 2011) with a net loss of $2.2 billion, compared
to a net loss of $1.6 billion for the same period in FY 2010. The modest increase in
revenue from Standard Mail® did not offset the loss of revenue from the reduced
volume of FCM.

Despite workhour reductions and organizational changes in FY 2011, slow economic
growth, electronic alternatives, and fuel prices have contributed to record losses. The
Postal Service is expected to reach its statutory borrowing limit by the end of the fiscal
year.19

In testimony before Congress,20 the U.S. Government Accountability Office (GAO)
stated that action is urgently needed to facilitate the Postal Service’s financial viability
as it cannot support its current level of service and operations. Congress, the Postal
Service, the administration, and stakeholders need to agree on a package of actions to
restore the Postal Service’s financial viability and take steps to modernize and
restructure it. The Postal Service needs to become a leaner, more flexible organization
so that it can operate more efficiently, control costs, keep rates affordable, and meet
customers’ changing needs. Postal Service operations, networks, and workforce need
to be realigned with the changes in mail usage and customer behavior, as the Postal
Service now has costly excess capacity.

Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal Service “. . .shall provide
prompt, reliable, and efficient services to patrons in all areas.” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

This report responds to a request from Congressman Brett Guthrie, who represents the
2nd District of Kentucky, to independently review the consolidation of mail processing
operations from the Bowling Green P&DF into the Evansville P&DF and Nashville
P&DC. The representative’s concerns included whether:

        Opportunities exist to improve service.
        Operational efficiency will decline.
        Local jobs will be eliminated.

19
  Postal News Release, May 10, 2011.
20
  GAO-11-428T, Testimony before the Subcommittee on Federal Workforce, U.S. Postal Service and Labor Policy,
Committee on Oversight and Government Reform, House of Representatives, dated March 2, 2011.


                                                     10
Bowling Green, KY Consolidation                                                                  EN-AR-11-008



This consolidation resulted from a second AMP study for the Bowling Green P&DF. On
September 22, 2009, the Postal Service initiated a feasibility study to move all
originating mail operations from the Bowling Green P&DF to the Nashville P&DC.
However, on April 6, 2010, management determined it was not feasible to proceed with
the study. The study for this AMP proposal started on September 14, 2010, and was
approved on April 1, 2011. Implementation for this consolidation began on July 1, 2011.

This originating mail consolidation will use a complex web of facilities for transferring
and processing mail from the Bowling Green P&DF (see Map 1):

    ZIP Code 423 collection mail will be transported and processed at the Evansville
     P&DF.

    The Hopkinsville PO and Bowling Green P&DF will serve as transportation hubs for
     all ZIP Code 421 and 422 collection mail and transfer it to the Nashville P&DC for
     processing.

    ZIP Code 423 Postal Automated Redirection System (PARS)21/ Computerized
     Forwarding System (CFS)22 mail will be processed at the Louisville P&DC via the
     Evansville P&DF.

    ZIP Codes 421 and 422 PARS/CFS mail will be transported to the Nashville P&DC
     to be cross-docked to the Chattanooga P&DC for processing.




21
  PARS intercepts and automates the processing of undeliverable-as-addressed mail on mail processing equipment.
22
  CFS performs address correction services and processes undeliverable-as-addressed mail that cannot be
processed on PARS.


                                                      11
Bowling Green, KY Consolidation                                                                            EN-AR-11-008



                      Map 1: Originating Mail Flow After Consolidation



                                      PARS/CFS Processing

                                              128 Miles                                  Louisville
    Evansville                                                                            P&DC
      P&DF
                                      423 Collection Mail

                           41 Miles

                                                                                               111 Miles
        PARS/CFS Processing             Owensboro
                                          PO
                                          423

                                                                 80 Miles

                                                                                Bowling
                                                                              Green P&DF
                                      421, 422 Collection Mail

                                              29 Miles




  Hopkinsville             36 Miles
                                                  Russellville
     PO                                              PO
                                                                            71 Miles

                                      PARS/CFS Processing



                           78 Miles
                                                                                       421, 422 Collection Mail
421, 422 Collection Mail


                                                  Nashville
                                                   P&DC


                                                                 PARS/CFS Processing


                                                         143 Miles
                                                                            Chattanooga
                                                                              P&DC




Source: Postal Service management




                                                            12
Bowling Green, KY Consolidation                                                                   EN-AR-11-008



The Evansville P&DF is 121 miles23 from the Bowling Green P&DF and the Nashville
P&DC is 71 miles from the Bowling Green P&DF. The Evansville and Bowling Green
P&DFs are in the Kentuckiana District, while the Nashville P&DC is in the Tennessee
District. All three are part of the Eastern Area.

Objectives, Scope, and Methodology

Our audit objectives were to assess the business case and operational impacts of the
proposed consolidation of the Bowling Green P&DF. We generated reports for the same
date range management used in the AMP worksheets (July 1, 2009–June 30, 2010).
We also obtained service reports for FY 2010 and YTD FY 2011. We performed an
attrition analysis for FYs 2008–2010. We conducted observations at all three sites
during the week of March 28, 2011, and interviewed management and employees.

We used computer-processed data from the following systems:

    Activity-Based Costing.
    Electronic Facilities Management System.
    Enterprise Data Warehouse.
    Web Complement Information System.
    Transportation Contracting Support System.
    Service Standard Directory.

We conducted this performance audit from March through August 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on July 15, 2011, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




23
  The AMP notes the mileage difference as 41 miles between Owensboro (ZIP 423) and Evansville, since this mail
will be transported directly to the Evansville P&DF after implementation.


                                                       13
Bowling Green, KY Consolidation                                          EN-AR-11-008



Prior Audit Coverage

                   Report Title                    Report Number   Final Report Date

Area Mail Processing Communications                EN-AR-09-001        2/4/2009

Canton Processing and Distribution Facility
                                                   NO-AR-09-011       9/22/2009
Outgoing Mail Consolidation

New Castle Processing and Distribution
                                                   NO-AR-10-002        2/1/2010
Facility Outgoing Mail Consolidation

Manasota Processing and Distribution Center
                                                   EN-AR-10-003       2/12/2010
Consolidation

Lakeland Processing and Distribution Center
                                                   EN-AR-10-004       2/12/2010
Consolidation

Dallas Processing and Distribution Center
                                                   NO-AR-10-003       2/24/2010
Outgoing Mail Consolidation
Consolidation of Lima Processing and
Distribution Facility Mail Operations Into the     NO-AR-10-007        7/2/2010
Toledo Processing and Distribution Center
Charlottesville Processing and Distribution
                                                   NO-AR-10-008        8/3/2010
Facility Consolidation

Review of Wilkes-Barre, PA Processing and
                                                   NO-AR-11-001       10/4/2010
Distribution Facility Consolidation

Marysville, CA Processing and Distribution
                                                   NO-AR-11-002       11/23/2010
Facility Consolidation

Houston, TX Processing and Distribution
                                                   NO-AR-11-004       12/14/2010
Center Consolidation
Columbus, GA Customer Service Mail
Processing Center Originating Mail                 NO-AR-11-005       2/14/2011
Consolidation
Huntington, WV Processing and Distribution
                                                   EN-AR-11-003       3/31/2011
Facility Consolidation

Implementation of Lima, OH to Toledo, OH
                                                   EN-AR-11-004       3/31/2011
Area Mail Processing Consolidation

Beckley, WV Post Office Facility Consolidation     EN-AR-11-005       4/21/2011




                                              14
Bowling Green, KY Consolidation                               EN-AR-11-008



                          Appendix B: Management’s Comments




                                         15
Bowling Green, KY Consolidation        EN-AR-11-008




                                  16
Bowling Green, KY Consolidation        EN-AR-11-008




                                  17
